V

APPENDIX: (separate volume)
Reviewing the Record

In the Court of Appeals, First Appellate District of Ohio, Hamilton County, Ohio
Walter Reinhaus vs. Zoning Board of Appeals of the City of Cincinnati
Appeal No. C-180616, Trial No. A-1801386
Judgment Entry
Dec 20, 2019

The Supreme Court of Ohio,
Walter Reinhaus v. Zoning Board of Appeals of the City of Cincinnati
Case No. 2020-0160
Entry (jurisdiction declined)
Apr 14, 2020

IN THE COURT OF APPEALS
FIRST APPELLATE DISTRICT OF OHIO
HAMILTON COUNTY, OHIO

WALTER REINHAUS,

£>127538284

APPEAL NO. C-180616
TRIAL NO. A-1801386

Plaintiff-Appellant,
JUDGMENT ENTRY.
vs.
ZONING BOARD OF APPEALS OF
THE CITY OF CINCINNATI,
Defendant-Appellee.

Centered
KU‘2(tf019

We consider this appeal on the accelerated calendar, and this judgment entry
is not an opinion of the court. See Rep.Op.R. 3.1; App.R. 11.1(E); 1st Dist. Loc.R. 11.1.1.
Appellant Walter Reinhaus appeals from the judgment of the trial court
adopting the magistrate’s decision upholding the decision of appellee, the Zoning Board
of Appeals of the city of Cincinnati (“ZBA”). The ZBA’s decision denied in part
Reinhaus’s request for a certificate of appropriateness. Reinhaus sought the certificate
to make exterior modifications to his circa 1880 industrial brick building.
Due to its location, Reinhaus’s property is subject to the historic conservation
guidelines for the Over-the-Rhine (“OTR”) historic zoning district of the city. Reinhaus
was required to obtain a certificate of appropriateness to modify the building’s facade,
including his plan to add new door openings and Juliet balconies in-between existing
window openings on the front and to add a metal spiral staircase, instead of a regular
staircase, to connect second and third level metal decks on the side. The city’s Urban
Conservator, the Historic Conservation Board (“HCB”), the ZBA, and the court of

\

OHIO FIRST DISTRICT COURT OF APPEALS
common pleas rejected Reinhaus’s request for these two modifications because
Reinhaus failed to demonstrate, as required by Cincinnati Municipal Code 1435-09-2,
that the modifications substantially conformed to the guidelines for the historical
district or that the denial of the request would cause him to suffer economic hardship.
In his sole assignment of error, Reinhaus argues that the trial court erred by
affirming the ZBA’s decision that denied the certificate of appropriateness for these
modifications. Within that assignment of error, he presents multiple issues for this
court’s review. Our standard of review focuses on the existence of legal error in the
trial court and “permits reversal only when the common pleas court errs in its
application or interpretation of the law or its decision is unsupported by a
preponderance of the evidence as a matter of law.” Cleveland Clinic Found. u.
Cleveland Bd. ofZoning Appeals, 141 Ohio St.3d 318,2014-Ohio-4809,23 N.E.3d 1161,
1130. We cannot weigh the evidence. Id. at H 25.
First we note, contrary to Reinhaus’s position, that he had the burden below of
showing that the ZBA’s presumably valid decision was erroneous. Hebeler v. Colerain
Twp. Bd. ofZoning Appeals, 116 Ohio App-3d 182,185,687 N.E.2d 324 (1st Dist.1997),
citing C. Miller Chevrolet Inc. v. Willoughby Hills, 38 Ohio St.2d 298, 313 N.E.2d 400
(1974), paragraph two of the syllabus. Further, during its R.C. 2506.04 review, the
common pleas court was required to give due deference to the administrative agency's
resolution of evidentiary conflicts and was prohibited from blatantly substituting its
judgment for that of the agency, “especially in areas of administrative expertise.”
Athenry Shoppers Ltd. v. Dublin Planning & Zoning Comm., loth Dist, Franklin No.
08AP-742,2009-Ohio-2230, H17.
The record shows that when challenging the denial of the certificate of
appropriateness, Reinhaus failed to present ailthfiritYtn ^pp™*

pri<:it^nT1 that prior

entered

2

m 10 2019

OHIO FIRST DISTRICT COURT OF APPEALS
action by the HCB related to an expired building permit was determinative with respect
to this current application for the proposed modifications. Moreover, the trial court
found that the proposed additional door openings on the front facade would alter the
symmetry of the building and contravene the guideline directed to door and window
openings. This unambiguous guideline is not limited to merely restricting the altering
of original window openings, as Reinhaus argues. The trial court also found that the
context of the proposed spiral staircase on the side facade was relevant to the
substantial-compliance review.
With respect to economic hardship, the trial court noted that Reinhaus’s
evidence on the three mandatory factors for the analysis was not persuasive.

For

instance, Reinhaus did not present objective, relevant evidence, and did not
demonstrate current efforts to pursue economic incentives to facilitate redevelopment.
His argument was further undermined because the proposed front facade changes
would not be located in a residential part of the project. Relatedly, Reinhaus failed to
support his conclusory claim of a “pro-tanto” taking.
Ultimately, the record demonstrates that the trial court, in affirming the ZBA’s
decision, applied the correct law, and its conclusions are supported by a preponderance
of the evidence.

While the decision includes minor factual inaccuracies, those

inaccuracies were not significant to the trial court's analysis and were harmless.
Consequently, we overrule the assignment of error and affirm the trial court’s
judgment.
Further, a certified copy of this judgment entry shall be sent to the trial court
under App.R. 27, Costs shall be taxed under App.R. 24.
Mock, P.J., Zayas and Winkler, JJ.

entered
OEU 20.2019
3

OHIO FIRST DISTRICT COURT OF APPEALS

To the clerk:
Enter upon the journal of the court on December 20,2019,
per order of the court_________ A
Presiding Judge

STATE OF OHIO, COUNTY OF HAMILTON
COURT OF COMMON PLEAS
THIS IS TO CERTIFY THAT THE FOREGOING
IS A TRUE AND CORRECT COPY OF THE
DOCUMENT ON FILE IN THIS OFFICE EfNTERED

—_________ / Q

/$

WITNESS MY HAND AND SEAL OF SAID COURT
THIS
AFTAB PUR
ERK
S
■“----------------------------------------------------------- _

/ Deputy clerk

ENTERED
DEC 2 0.2019
4

Wqz £&ixpxerne (Eaurt of (©ffto

fr* S (5
if*
II j!fZ3
M

fe, 0

APR iU 2029

supgEftreaufrrEPaHic
$

Walter Reinhaus
v.
Zoning Board of Appeals of the City of
Cincinnati

Case No. 2020-0160

s>

->:

l

ENTRY

Ii
Vi

>:%

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Hamilton County Court of Appeals; Nos. A-1801386 and C-180616)

mjuAaah.

jJ

Maureen O’Connor
Ch ief Justice

The Official Case Announcement can be found at http://vvwv.supremecourt.ohio.gov/ROD/docs/

